No. 20-255

 

In THE
Supreme Court of the United States

MAHANOY AREA SCHOOL DISTRICT,
Petitioner,
v.

B.L., A MINoR, BY AND THROUGH HER FATHER,
LAWRENCE LEVY, AND HER MOTHER, BETTY Lou Levy,
Respondents.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT

BRIEF AMICUS CURIAE OF THE
BECKET FUND FOR RELIGIOUS LIBERTY
IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,176 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

Colin Casey Yogan
Wilson-Epes Printing Co., Inc.
